No. 19-223

In the Supreme Court of the United States
JANICE SMYTH,

Petitioner,
v.
CONSERVATION COMMISSION OF FALMOUTH, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Mountain
States Legal Foundation and the Cato Institute as Amici Curiae in Support of
Petitioner contains 3,699 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 18, 2019.
/s/ Cristen Wohlgemuth
Cristen Wohlgemuth
Counsel of Record
David C. McDonald
Mountain States Legal Fdtn.
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cristen@mslegal.org
dmcdonald@mslegal.org
September 18, 2019

Ilya Shapiro
Trevor Burrus
CATO INSTITUTE
1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

Attorneys for Amici Curiae

